No.

IN THE
SUPREME COURT OF THE UNITED STATES
LINKEDIN CORPORATION,
Applicant,
v.
HIQ LABS, INC.,
Respondent.

APPLICATION TO THE HON. ELENA KAGAN FOR AN
EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT

Pursuant to Supreme Court Rules 13.5, 22, and 30.3, LinkedIn Corporation
(“Applicant”) hereby move for an extension of time of 32 days, to and including March
9, 2020, for the filing of a petition for a writ of certiorari. The United States Court of
Appeals for the Ninth Circuit issued its opinion on September 9, 2019 (Exhibit 1), and
issued an order denying panel rehearing and rehearing en banc on November 8, 2019
(Exhibit 2). Unless an extension is granted, the deadline for filing the petition for
certiorari will be February 6, 2020. Applicants are filing this application at least ten
days before that date. See Sup. Ct. R. 13.5. This Court’s jurisdiction is invoked under
28 U.S.C. 1254(1).
1.

This case presents a recurring and important question on which the
1

courts of appeals are divided: whether an entity that deploys anonymous computer
“bots” that circumvent technical barriers and mass-harvests individuals’ personal
data from computer servers—even after the entity’s permission to access those servers
has been expressly denied by the website owner— “intentionally accesses a computer
without authorization” under the Computer Fraud and Abuse Act (CFAA), 18 U.S.C.
1030(a)(2).
2.

Applicant is LinkedIn Corporation, an online professional social

networking site. Respondent hiQ Labs Inc. is a company whose business model is to
scrape and harvest LinkedIn member data and repackage and sell it to employers to,
e.g., alert them regarding which particular employees are likely looking for a new job.
hiQ circumvented various technical measures that LinkedIn had put in place to
prevent bots from scraping data. After LinkedIn sent hiQ a cease-and-desist letter
communicating to hiQ that its bots did not have permission to access and scrape
LinkedIn’s servers, hiQ sued LinkedIn in a declaratory judgment action asserting
various state law claims. The district court granted a preliminary injunction to hiQ,
holding that hiQ had presented “serious questions” regarding one of its state law
claims, and rejecting as a matter of law LinkedIn’s argument that the CFAA
preempted hiQ’s affirmative state law claims.
3.

The Ninth Circuit affirmed. It noted that the key question under the

CFAA was whether hiQ had accessed LinkedIn’s servers “without authorization”
when it scraped data after evading technical measures and after LinkedIn sent its
cease-and-desist letter.

The Ninth Circuit held that although LinkedIn had

“ban[ned]” HiQ from its servers, a ban was distinct from refusing authorization, and
2

that accessing publicly-available sections of a website could never be “without
authorization” under the CFAA. Ex. 1, at 26. The Ninth Circuit further held that any
privacy interests that LinkedIn members held in their personal data was outweighed
by hiQ’s interests in maintaining its business model. Id. at 16.
4.

The issue presented here is the subject of disagreement among the

circuits. The Ninth Circuit’s decision conflicts directly with a decision of the First
Circuit, which held that where a publicly-accessible website bans data scrapers,
further access by those scrapers is without authorization. See EF Cultural Travel BV v.
Zefer Corp., 318 F.3d 58, 60-63 (1st Cir. 2003). Moreover, every district court to have

considered the question has agreed with the First Circuit that a publicly available
website can be accessed “without authorization” under the CFAA.
5.

Good cause exists for this application. During the interval allotted for

preparing a petition for a writ of certiorari in this matter, undersigned counsel has
been required to devote time to numerous matters, including United States v.
Blaszczack (2d Cir. Nos. 18-2811, 18-2825, 18-2867, 18-2878) (petition for panel
rehearing or rehearing en banc due on February 3, 2020); Wells Fargo Bank, N.A. et
al. v. Estate of Phyllis M. Malkin (11th Cir. No. 19-14689) (opening brief due February
5, 2020); United States House of Representatives v. Texas (S. Ct. No. 19-841) (reply in
support of certiorari due shortly after brief in opposition, which is due on February 3,
2020); Crystallex Int'l Corp. v. Bolivarian Republic of Venezuela, (3d Cir. Nos. 18-2797,
18-3124, 18-2889) (petition for certiorari due February 19, 2020). The requested
extension of time will allow counsel the additional time that is necessary to prepare a
well-researched and comprehensive petition. The requested extension will also allow
3

additional time for consultation with potential amici.
For the foregoing reasons, Applicant requests that an extension of time to and
including March 9, 2020 be granted, within which time Applicant may file a petition
for a writ of certiorari.
Respectfully submitted,
/s/ Donald B. Verrilli, Jr.
Donald B. Verrilli, Jr.
Counsel of Record
Jonathan Meltzer
Munger, Tolles & Olson LLP
1155 F Street, NW
Seventh Floor
Washington, DC 20004
(202) 220-1100
Donald.Verrilli@mto.com

January 22, 2020

Jonathan H. Blavin
Rosemary T. Ring
Nicholas D. Fram
Marianna Y. Mao
Munger, Tolles & Olson LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4000
Counsel for Applicants

4

